  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL



          THE NEW JERSEY
  DEPARTMENT OF HUMAN SERVICES
CLAIMED MEDICAID DISPROPORTIONATE
     SHARE HOSPITAL PAYMENTS
  TO FIVE HOSPITALS THAT DID NOT
     MEET FEDERAL ELIGIBILITY
           REQUIREMENTS
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                       November 2012
                                                       A-02-09-01017
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In New Jersey, the Department of Human Services (State
agency) administers Medicaid.

The Omnibus Budget Reconciliation Act of 1981 established the Medicaid Disproportionate
Share Hospital (DSH) program. Under the DSH program, the State agency is required to make
special payments, known as DSH payments, to hospitals that serve a disproportionate share of
low-income and/or uninsured patients. For a hospital to receive DSH payments, the State must
classify the hospital as a DSH.

Pursuant to section 1923(d) of the Act, the State agency must make DSH payments to certain
hospitals that meet certain requirements and thus are deemed DSHs. The Act also allows the
State agency to define hospitals in the State plan as DSHs. Specifically, the State agency may
not define or deem a hospital as a DSH unless the hospital has a Medicaid inpatient utilization
rate (MIUR) of not less than 1 percent. (A hospital’s MIUR, expressed as a percentage, is the
number of inpatient days attributable to patients who were Medicaid-eligible, divided by the total
of the hospital’s inpatient days in a particular year.) The Federal Government reimburses the
State agency 50 percent of its DSH payments.

For State fiscal years (SFY) 2003 through 2007, the State agency claimed $6,209,296,319
($3,104,648,159 Federal share) in DSH payments to 109 hospitals.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
DSH payments to hospitals in accordance with Federal eligibility requirements.

SUMMARY OF FINDING

Contrary to Federal requirements, the State agency claimed DSH payments totaling
$100,127,954 ($50,063,977 Federal share) for five hospitals that did not meet Federal
requirements for DSH payments during our audit period. Specifically, for the five hospitals, the
State agency calculated a MIUR of less than 1 percent during one or more SFYs. The State
agency stated that it claimed DSH payments for the hospitals because it misinterpreted Federal
regulations on DSH eligibility.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

    •   refund $50,063,977 to the Federal Government and

    •   ensure that all hospitals designated as DSHs meet Federal eligibility requirements for
        DSH payments.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially agreed with our first
recommendation and did not indicate either concurrence or nonconcurrence with our second
recommendation. The State agency stated that two of the five hospitals satisfied the 1-percent
MIUR standard during a portion of our audit period. In addition, the State agency contended that
valid claims for DSH payments to other hospitals throughout the State exceeded the State’s DSH
allotment during a portion of our audit period; therefore, these claims should be considered as an
offset to the unallowable DSH payments associated with our finding. As a result, the State
agency stated that the most it should refund to the Federal Government is $3,465,811. The State
agency provided, in separate correspondence, additional documentation to support its claim.

After reviewing the State agency’s comments and additional documentation, we accepted some
of the DSH payments we had questioned in our draft report related to one hospital and revised
our finding and related recommendation accordingly. Although the State agency contended that
valid claims for DSH payments to other hospitals should be considered as an offset to the
unallowable DSH payments associated with our finding, the State agency provided no specific
evidence to support an offset.

The State agency’s comments appear as Appendix B.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
            Medicaid Program ................................................................................................1
            New Jersey’s Disproportionate Share Hospital Program.....................................1
            Disproportionate Share Hospital Payment Eligibility..........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
            Objective ..............................................................................................................2
            Scope ....................................................................................................................2
            Methodology ........................................................................................................2

FINDING AND RECOMMENDATIONS .........................................................................3

          HOSPITALS DID NOT MEET FEDERAL ELIGIBILITY REQUIREMENTS .....3

          RECOMMENDATIONS ...........................................................................................3

          STATE AGENCY COMMENTS……………………………………………..……3

          OFFICE OF INSPECTOR GENERAL RESPONSE……………………………....4

APPENDIXES

          A: INELIGIBLE DISPROPORTIONATE SHARE HOSPITAL PAYMENTS

          B: STATE AGENCY COMMENTS




                                                                     iii
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In New Jersey, the Department of Human Services (State
agency) administers Medicaid.

New Jersey’s Disproportionate Share Hospital Program

The Omnibus Budget Reconciliation Act of 1981 established the Medicaid Disproportionate
Share Hospital (DSH) program. The Medicaid DSH program was established to provide
additional financial support to hospitals that provide significant amounts of uncompensated care
to Medicaid and low-income populations. 1

Under the DSH program, the State agency is required to make special payments, known as DSH
payments, to hospitals that serve a disproportionate share of low-income and/or uninsured
patients. The Federal Government pays its share of a State’s DSH payments under Medicaid
based on the Federal medical assistance percentage, which varies depending on the State’s
relative per capita income. The Federal Government reimbursed the State agency for 50 percent
of its DSH payments. For State fiscal years (SFY) 2003 through SFY 2007 (July 1, 2002,
through June 30, 2007), the State agency claimed $6,209,296,319 ($3,104,648,159 Federal
share) in DSH payments to 109 hospitals.

Disproportionate Share Hospital Payment Eligibility

For a hospital to receive DSH payments, the State agency must classify the hospital as a DSH.
Pursuant to section 1923(d) of the Act, the State agency must make DSH payments to certain
hospitals that meet certain requirements and thus are deemed DSHs. The Act also allows the
State agency to define hospitals in the State plan as DSHs.

Section 1923(d)(3) of the Act stipulates that no hospital may be defined or deemed as a DSH
unless the hospital has a Medicaid inpatient utilization rate (MIUR) of not less than 1 percent. 2


1
  Uncompensated care costs are costs incurred to provide services to Medicaid and uninsured patients less payments
received for those services.
2
 The MIUR, expressed as a percentage, is the number of inpatient days attributable to patients who were
Medicaid-eligible divided by the total of the hospital’s inpatient days in a particular year.

                                                        1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
DSH payments to hospitals in accordance with Federal eligibility requirements.

Scope

Our audit covered DSH payments claimed by the State agency totaling $6,209,296,319
($3,104,648,159 Federal share) for the period SFYs 2003 through 2007. We reviewed the
MIURs for 109 hospitals for which the State agency claimed Federal reimbursement for DSH
payments.

Our objective did not require an understanding or assessment of the State agency’s or the
hospitals’ overall internal control structures. Our review was limited to gaining an understanding
of the hospitals’ MIUR calculations and the State agency’s calculation for claiming DSH
payments.

We performed our fieldwork at the State agency’s offices in Trenton, New Jersey.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal and State laws and regulations;

      •    obtained from the State agency a list of hospitals that received DSH payments;

      •    reviewed the State agency’s Quarterly Medicaid Statement of Expenditures for the
           Medical Assistance Program, Form CMS-64, for the period July 1, 2002, through June
           30, 2009, to determine DSH payments claimed for Federal reimbursement;

      •    obtained from the State agency its MIUR calculations for all 109 hospitals; and

      •    reviewed the Hospital Cost Report, CMS-2552-96, submitted to CMS by each hospital
           for the period 2000 through 2004 to identify those hospitals that did not meet the
           1-percent MIUR eligibility requirement and verified the hospital’s MIUR calculations. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

3
    Cost reports from 2000 through 2004 were the basis for calculating the MIURs for 2003 through 2007.

                                                          2
                                FINDING AND RECOMMENDATIONS

HOSPITALS DID NOT MEET FEDERAL ELIGIBILITY REQUIREMENTS

Contrary to section 1923(d)(3) of the Act, the State agency claimed DSH payments totaling
$100,127,954 ($50,063,977 Federal share) for five hospitals that did not meet Federal eligibility
requirements for DSH payments during our audit period. Specifically, for the five hospitals, the
State agency calculated a MIUR of less than 1 percent during one or more SFYs. The State
agency stated that it claimed DSH payments for the hospitals because it misinterpreted Federal
regulations on DSH eligibility. Appendix A contains a summary of DSH payments to the
ineligible hospitals.

RECOMMENDATIONS

We recommend that the State agency:

         •    refund $50,063,977 to the Federal Government and

         •    ensure that all hospitals designated as DSHs meet Federal eligibility requirements for
              DSH payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our first
recommendation and did not indicate either concurrence or nonconcurrence with our second
recommendation. The State agency stated that two of the five hospitals satisfied the 1-percent
MIUR standard during a portion of our audit period. In addition, the State agency contended that
valid claims for DSH payments to other hospitals throughout the State exceeded the State’s DSH
allotment during a portion of our audit period; therefore, these claims should be considered as an
offset to the unallowable DSH payments associated with our finding. As a result, the State
agency stated that the most it should refund to the Federal Government is $3,465,811.

The State agency stated that the DSH claims it had submitted for one hospital, Mount Carmel
Guild, for SFYs 2006 and 2007, were proper because the hospital had met the 1-percent MIUR
standard for designation as a DSH. The State agency asserted that we had excluded from our
calculation of MIUR a number of Medicaid-eligible days, and that “[w]hen the days are added to
Medicaid-paid days for each year in question, the MIUR rate exceeds one percent.” The State
agency provided additional documentation, in separate correspondence, to support its claim. The
State agency also stated that another hospital, Meadowview Psychiatric Hospital, qualified as a
DSH during our audit period if certain Medicaid-eligible days were included in its MIUR
calculation; however, the State agency acknowledged that CMS does not permit the inclusion of
these days in the MIUR calculation. 4 The State agency’s comments appear as Appendix B.


4
 The days in question relate to Medicaid-eligible beneficiaries between the ages of 22 and 64 at institutions for
mental disease.


                                                          3
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional documentation, we accepted some
of the DSH payments questioned in our draft report related to Mount Carmel Guild and revised
our finding and related recommendation accordingly.

Regarding the State agency’s contention that Meadowview Psychiatric Hospital qualified as a
DSH if certain Medicaid-eligible days were included in the hospital’s MIUR calculation, Federal
law states (section 1905(a)(28)(B) of the Act) that Federal financial participation is not available
for the days in question. Therefore, we did not include those days in our calculation of the
hospital’s MIUR. Although the State agency asserted that valid claims for DSH payments to
other hospitals should be considered as an offset to the unallowable DSH payments associated
with our finding, the State agency provided no specific evidence to support an offset. 5




5
    The State agency may directly address the offset of excess claims with CMS.

                                                          4
APPENDIXES
  APPENDIX A: INELIGIBLE DISPROPORTIONATE SHARE HOSPITAL PAYMENTS
                                      State Fiscal Year 2003
                                                                   DSH** Payment
                        Hospital                          MIUR*       claimed      Federal Share
Saint Barnabas Behavioral Health                           0.72%            $4,661         $2,331
Buttonwood Hospital                                        0.11%         3,054,479     1,527,240
Hudson County Psych Hospital / Meadowview Psychiatric
Hospital/Hudson County                                     0.08%        14,654,468       7,327,234
  Total                                                                $17,713,608      $8,856,804
                                      State Fiscal Year 2004
                                                                    DSH Payment
                        Hospital                          MIUR        claimed        Federal Share
Healthsouth Garden State Rehab                            0.56%            $3,022            $1,511
Hudson County Psych Hospital / Meadowview Psychiatric
Hospital/Hudson County                                     0.47%        14,899,567       7,449,784
  Total                                                                $14,902,589      $7,451,295
                                     State Fiscal Year 2005
                                                                    DSH Payment
                        Hospital                          MIUR        claimed        Federal Share
Healthsouth Garden State Rehab                             0.73%           $1,723             $862
Mount Carmel Guild                                             0       10,088,483        5,044,242
Hudson County Psych Hospital / Meadowview Psychiatric
Hospital/Hudson County                                     0.90%        15,386,871       7,693,436
  Total                                                                $25,477,077     $12,738,539
                                     State Fiscal Year 2006
                                                                    DSH Payment
                        Hospital                          MIUR        claimed        Federal Share
Saint Barnabas Behavioral Health                           0.47%            $5,900           $2,950
Buttonwood Hospital                                            0         3,972,697       1,986,349
Hudson County Psych Hospital / Meadowview Psychiatric
Hospital/Hudson County                                         0        15,973,674       7,986,837
  Total                                                                $19,952,271      $9,976,136
                                     State Fiscal Year 2007
                                                                    DSH Payment
                        Hospital                          MIUR        claimed        Federal Share
Healthsouth Garden State Rehab                            0.16%               $308            $154
Saint Barnabas Behavioral Health                          0.69%              1,837             919
Buttonwood Hospital                                           0          4,266,129       2,133,065
Hudson County Psych Hospital / Meadowview Psychiatric
Hospital/Hudson County                                         0       17,814,135        8,907,068
  Total                                                               $22,082,409      $11,041,205
  Total - State Fiscal Years 2003-2007                               $100,127,954      $50,063,977
  * MIUR = Medicaid inpatient utilization rate      ** DSH = Disproportionate Share Hospital
                                                                                                                   Page 1 of 5

                        APPENDIX B: STATE AGENCY COMMENTS 





                                               ~brle of ~2fu IDuliIcll
C HRIS CH RISTIE                              D EPARTMENT OF H UMAN SERVICES 

   Governor                      DIVISION Of MEDICAL A SSISTANCE AND H EALTH S ERVICES 

K IM GUADAGNO                                             PO Box 7 12 

                                                                                                               JENNIFER V ELEZ
  Lt. Governor                                      T RENTON. NJ 08625-07 12 

                                                                                                                Commissioner
                                                                                                               V ALERIE HARR
                                                       July 17, 2012                                              Director




          James P. Edert
          Regional Inspector General for Audit Services
          Department of Health and Human Services
          Office of the Inspector General
          Office of Audit Services Reg ion II
          Jacob K. Javits Federal Bu ilding
          26 Federal Plaza , Room 3900
          New York , NY 10278

          Re : 	 New Jersey Response-Review of Medicaid Disproportionate Share
                 Hospital Payments to Five Hospitals, A-02-09-01017

          Dear Mr. Edert:

         This letter provides the New Jersey Department of Human Services's (DHS) response
         to the Department of Health and Human Services Office of the Inspector General's
         (OIG) draft aud it report A-02-09-01017 entitled The New Jersey Department of Human
         Services Claimed Medicaid Disproportionate Share Hospital Payments to Five Hospitals
         That Did Not Meet Federal Eligibility Requirements, covering claims for State Fiscal
         Years (SFYs) 2003 through 2007.

         DHS strongly disagrees that the OIG's findings support the Draft Audit's
         recommendation that the State return $57,949,409 in federal funds paid to five
         Disproportionate Share Hospitals (DSHs). As explained below, at most, the amount of
         DSH funds that should be returned by the State to resolve the Draft Audit is $3,465,811 .

         Pursuant to section 1923(d)(3) of the Social Security Act (SSA), 42 U.S.C. § 1396r­
         4(d)(3), a State may define or deem a hospital as a DSH if it has a Med icaid inpatient
         utilization rate (MIUR) of at least one percent. A hospital's MIUR, expressed as a
         percentage, is the number of inpatient days attributable to patients who were Medicaid­
         eligible divided by the total of the hospital's inpatient days in a particular year. See SSA
         § 1923(b)(2), 42 U.S.C. § 1396r-4(b)(2) . The Draft Audit determined that five of the
         hospitals for which New Jersey submitted DSH claims-Buttonwood Hospital,
         Healthsouth Garden State Rehab , Meadowview Psychiatric Hospital, Mount Carmel
         Gu ild , and St. Barnabas Behavioral Health-had a MIUR of less than one percent




                     New Jenq I.J An Equal Opportunity Employer _ Prinlb:! Off Recycled PfI/H' and Recycl4b~
                                                                                                 Page2 of5



James P. Edert 

July 17, 2012 

Page 2 




during at least one of the SFYs covered by the audit, and thus did not qualify for DSH
payments.

As we show below, some of the above-named hospitals did in fact satisfy the one
percent MIUR standard in several of the years in question. Moreover, and apart from
th is, the State made and reported to CMS DSH payments in each of the years in
question that utilize all or almost all of its allotments for those years, without regard to
the payments made that were questioned by the OIG audit. Accordingly, the State has
not, with the exceptions noted below, received DSH funds for non-qualifying hospita ls
and has no repayment obligation with respect to those funds .

Under Section 1923(d)(3), the MIUR calculation includes all days on which services
were provided to Medicaid-eligible patients ("Medicaid-eligible days"), not just days for
which the hospital was paid through Medicaid ("Medicaid-paid days"). The OIG auditors
applied MIURs from three years' prior (SFYs 2000 through 2004) taken from CMS
2552-96 reports , which reflect only Medica id paid days and exclude Medicaid-eligible
days, without making further adjustments to include add itional Medicaid-eligible days.
This principally affects Mount Carmel Guild hospital, a facility that is not an Institute for
Mental Disease (IMD) , which was found by the OIG to have a MIUR rate below one
percent in SFYs 2005 , 2006 and 2007. For the rate years OIG used to calculate MIURs
for SFYs 2006 and 2007 (SFYs 2003 and 2004) , the State has identified a number of
Medicaid-elig ible days for Mount Carmel for wh ich the State did not subm it Med icaid
cla ims. These days were excluded from the OIG's MIUR calcu lations. When the days
are added to the Medicaid-paid days for each year in question, the MIUR rate exceeds
one percent, as demonstrated by Table 1 below. Thus, the DSH claims New Jersey
submitted for Mount Carmel in SFYs 2006 and 2007 were proper.

                              Table I: MI UR Rates for Mount Carmel
                                              SFY 2000 SFY 2001   S FY 2002 S FY 2003 SFY 2004
Total ln~P at je nl   Days                       -­       -­          -­      1,092    1,095
Med icaid Paid Days                              -­       -­          -­        0        0
Medicaid-Elig ible Days                          -­       -­          --       28       308
MIUR (Includin g Medica id-Elig ible Da ys)      -­       -­          -­     2.56%    28.13 %


For IMDs, Medicaid-eligible days include days on which in-patient services were
provided to Medicaid-eligible beneficiaries between the ages of 22 and 64 . Regular
Med icaid payments are not permitted for these services. See SSA § 1905(a)( 14), 42
U.S.C. § 1396d(a)( 14); 42 C.F.R. § 440 .160. But the State believes that these days
should have been included in the MIUR calculations for the IMD hospitals audited by the
OIG : Buttonwood and Meadowview. For at least one of these IMDs-Meadowview­
there are sufficient Medicaid-eligible days excluded from the OIG's MIUR calculations to
bring the hosp ital's MIUR to over one percent for each rate year included in the CMS
2552-96 , thus qualifying Meadowview as a DSH hospital. The State, however,
acknowledges that CMS has taken the opposite view and does not permit the inclusion
of in-patient days provided to Medicaid-eligible beneficiaries between the ages of 22
                                                                                                                        Page 3 of5



 James P. Edert
 July 17, 2012
 Page 3



and 64 at IMDs to be included in the MIUR calculations. See New York State
Department of Health, DAB No. 1867 (2003). The State specifically reserves its right to
pursue this issue should it become dispositive in this or other audits.

The issue should not be dispositive in this case because whether or not the IMDs found
ineligible by the Draft Audit meets the one percent MIUR standard , substantially all of
the recommended recoupment relating to the IMDs is unwarranted. That is because the
State submitted valid claims for DSH payments to other, qualifying IMDs that fully
utilized the portion of the State's DSH allotment available for IMD payments . Thus, the
FFP received by the State was based on claims that have not been questioned by the
audit. To that extent, no return of DSH funds is required .

Each state is provided annually an overall DSH allotment, and a sub-allotment that may
be used for payments to IMDs. Tables 2 and 3 show, for each of the Federal Fiscal
Years (FFYs) included in the time period in question (FFYs 2002 through 2007) , the
amounts of the IMD sub-allotment, the amount claimed by the State for IMD DSH
payments, and the amount of payments found by the OIG to be unwarranted. Because
there were other claims available in each year to fully utilize the State's IMD DSH sub­
allotment, the claims of Buttonwood and Meadowview did not have any impact on the
State's entitlement to FFP and are included within the excess claims for which the State
received no FFP.

                             Table 2 : IMD DS" Claims Relative to Stale Sub-Allotments
                                     FFY 2002       FFY 2003        FFY 2004       FFY 2005       FFY 2006       FFY 2007
Statcw ide Claims
Statewide Sub-Allotment            5 178,628,772   SI70,737,825    5 178,685,23 1 5 178,685,23 1 5 178,685,231 5178,685,23 1
Siale Claims                       S205,222,827    5212,65 1,803   5208,773,424   5223,307,878   5243, 125,250 52 10,956, 109
Exce ss State Claim s              $26,594 ,055    541 ,9 13,978   530,088, 193   544,622,647    564,440,019    532,270, 878


                                     Table J: IMD DSH C laims Covered by Audit
                                                    SFY 2003        SFY 2004       SFY 2005       SFY 2006       SFY 2007
OIO- Recommcnded Disallowance
Buttonw ood Hospital                               S I,527,240          SO             50         S I,986,349    52, 133,065
Meadowview Ho spital                               S7,327,234       57,449,784     57,693,436     57,986,837     58,907,068

.
Tota l Re commended Disallowance                   S8,854,474      57,449,784     S7,693,436      59,973,186    S I1 ,040,133
 AU amounts In both tables represent the federal share of the claims submitted through the last quarter of FFY 2007 .
New Jersey's annual statewide DSH allotment can be found at 63 Fed. Reg , 54 142, 54 143 (Oct. S, 1998), 69 Fed .
Reg . 15850, 15863 (Mar. 26, 2004) , and 71 Fed. Reg . 58398 , 58409-11 (Oct. 3, 2006).


The other three hospitals found by the OIG not to qualify for DSH payments (St.
Barnabas for SFYs 2003, 2006 , and 2007, Healthsouth for SFYs 2004, 2005, and 2007,
and Mount Carmel Guild for SFYs 2005 , 2006, and 2007) are not IMDs. But in FFYs
2002 , 2003 , 2004 , and 2007, New Jersey's overall DSH claims were substantially
greater than the available allotment, and the excess in each year was far greater than
                                                                                                                                      Page 4 0[5



James P. Edert
July 17, 2012
Page4


the amounts for these three hospitals found by OIG to be unwarranted for SFYs 2003 ,
2004, and 2007 . This is demonstrated by Tables 4 and 5 below. Thus, the allegedly
improper claims for SI. Barnabas, Healthsouth, and Mount Carmel for SFYs 2003, 2004,
and 2007 did not affect the State's entitlement to FFP and fall within the excess claims
for which the State received no FFP.

                                   Table 4: NOD-IMO OSH Claims Relative to State Allotments
                                             FFY 2002        FFY 2003        ny 2004         FFY 2005        FF\' 2006       FFY 1007
Statewide Claims
Statewide Allotment Less (MD Sub-
                                           $368,254,878     $351,987, 175   $427,675 ,769   $427,675,769    $427,675 ,769 5427, 675,769
Allotment
State No n-IMD Claims                      $378 .066, 174   $355,597,998    $429,259.523    $375 ,728,763   5395 ,937,472 5462 ,010,668

F..xcess Non-IMD Slate Claims               59,811,296       $3 ,610,823     $ 1,583,754         -­              -­         $34,334,899


                                                       Table S: Audited OSH Claims
                                                             SF\' 2003       SFY 2004        SFY 2005        SFY 2006        SFY 2007

OIG-Recommended Disallowance
IMD Hospitals (from Table /)
    Recommended Disallowance                                 $8,854,474     57.449,784      S7,693,436      59.973. 186     $ 11,040, 133

    Ne t Improper Claims                                         $0              $0              SO              $0              $0
Non-/JdD Hospitals

    St. Barnabas Behavioral Heahh Center                       S2,33 1           $0              $0           .$2,950          £919

    Hca!thsouth Garden State Rehabilitation Hospital             $0            £ 1,5 11        $862              $0            S I54

    Mount Carmel Guild                                           $0              $0         S5.044,242      $4, 148,202     $3,737,230


.   Total Non-ll\1D Reco mmended Diullowancc                   $2 .331        $ 1,511       55.045,104      $4, 151 . 152
 AU amounts In both tables represent the federal share of the claims submitted through the last quarter of FFY 2007.
                                                                                                                            $3,738,303



Although the State did not report DSH payments in FFYs 2005 and 2006 in excess of its
allotment for those years , recoupment is nevertheless inappropriate for the vast majority
of claims the State submitted for the non-IMD hospitals during these years. The
recovery amounts recommended for Mount Carmel in those two years represent the
overwhelming majority of the total recommended recovery for non-IMD hospitals. But
as shown above , it met the MIUR standard in 2006 (as it also did in 2007) .

However, the State is unable to determine that it did so in SFY 2005 , and therefore
agrees that there should be a recovery for that year. That said, the amount
recommended by the Draft Audit for that year ($5 ,044 ,242) is too high. A portion of this
payment is attributable to FFY 2004 , and in that year there were payments to other
qualifying hospitals that covered the amount claimed for Mount Carmel in SFY 2005,
even after deducting the allegedly improper payment to Healthsouth in SFY 2004 .
Thus , a reduction in the amount of $1 ,582 ,243 should be made to the $5 ,045 ,104 in
allegedly improper claims identified by the OIG for SFY 2005, resulting in $3,462 ,861.
                                                                                       Page 5 0[5



James P. Edert
July 17, 2012
Page 5



The State is prepared to repay this amount, as well as the allegedly improper DSH
claims totaling $2,950 for St. Barnabas for SFY 2006 to resolve the Draft Audit.

Thank you for providing the State with an opportunity to comment on the Draft Audit.
Should you have any questions, please contact me or Richard H. Hurd at 609-588-2550
or bye-mail atRichard.H.Hurd@dhs.state.nj.us.

                                      Sincerely,




                                      Valerie Harr
                                      Director

VH :H
c:    Jennifer Velez
      Richard H. Hurd
